2311 Douglas Street
Omaha, Nebraska 68102-1214

•COCKLE

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Briefs
Est. 1923

1-800-225-6964
(402)342-2831
Fax: (402) 342-4850

Web Site
www.cockleIegalbriefs.com
No.
JORGE ALBERTO MENDOZA,
Petitioner,
vs.
UBER TECHNOLOGIES INC.,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 4th day of November, 2020, send
out from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for deliveiy within 3 calendar
days. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
JORGE ALBERTO MENDOZA
15540 Vanowen Street
Apt. 113
Van Nuys,CA 91406

Subscribed and sworn to before me this 4th day of November, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL ROIARY-State of NAraska

D

__ RENEE A GOSS
1‘gSiafeWi My Comm. Exp, September S, 2023
Notary Public

Affiant

NOV 1 Q 2Q20

S’

Katherine A Wolf
Uber Technologies, Inc.
1455 Market Street, Suite 400
San Francisco, CA 94103
415-986-2715
kwolf@uber.com
Vassi Iliadis
Hogan Lovells
1999 Avenue of the Stars, Suite 1400
Los Angeles, CA 90067
310-785-4640
vassi.iliadis@hoganlovells.com

